No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
ADAM FRASCH,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certifies that on
this 19th day of November, 2020, three copies of the Petition for Writ of Certiorari in
the above-entitled case was mailed first class, postage prepaid, to:
Office of the Attorney General
Legal Division
PL-01, The Capitol
Tallahassee, Florida 32399-1050
I further certify that all parties required to be served have been served.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

